Paul D. Clement
To Call Writer Directly:
+1 202 389 5013
paul.clement@kirkland.com

1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
United States
+1 202 389 5000

Facsimile:
+1 202 389 5200

www.kirkland.com

April 30, 2020
Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, Northwest
Washington, DC 20543-0001
Re:

PennEast Pipeline Company, LLC v. New Jersey, et al., No. 19-1039

Dear Mr. Harris:
I represent petitioner PennEast Pipeline Company, LLC, and write in response to
respondents’ April 30, 2020 letter seeking a 30-day extension of time to file their responses to the
above-captioned petition seeking review of a decision from the Third Circuit. Petitioner consents
to an extension of respondents’ deadline up to 20 days, but opposes the requested 30 days.
PennEast filed its petition on February 18, 2020, seeking review of a decision that, by the
Third Circuit’s own telling, has disrupted nearly 80 years of practice in the nation’s natural gas
industry. See Pet.App.30. The decision below has already prompted an order from the Federal
Energy Regulatory Commission confirming the substantial disruption to the industry. See FERC
Declaratory Order, 170 FERC ¶ 61,064, Dkt. No. RP20-41-000, ¶¶25, 56 (Jan. 30, 2020). And the
petition generated nine amicus briefs (from 18 different amici) urging this Court to grant
certiorari. Yet while respondents were fully aware of those dynamics, they not only chose to waive
their responses, but waited until the very last possible day to do so, essentially helping themselves
to (at least) an additional 30 days to work on the briefs in opposition that would inevitably be
requested. 1 Now, more than 70 days after the petition was filed, respondents ask this Court for
another 30 days to file a response that is presently due May 13.
1

Respondents note in their request that petitioner sought and received a 30-day extension of time to file the petition.
But as petitioner explained in its application, it sought additional time only because FERC announced its intent to hold
an open meeting regarding a declaratory order addressing the decision below only two business days before the petition

Scott S. Harris
April 30, 2020
Page 2

While petitioner is sympathetic to the disruption that COVID-19 has created, respondents’
requested extension could preclude this Court from considering the petition before it recesses for
the summer. Petitioner accordingly respectfully requests that the Court grant an extension of no
more than 20 days, to and including June 2, 2020. A 20-day extension would provide respondents
substantial additional time to prepare their responses, while still allowing the Court to consider the
petition this Term if petitioner waives a week of its reply brief, which petitioner is willing to do to
accommodate respondents.
Sincerely,

Paul D. Clement

cc:

All counsel of record

would have been due. Petitioner did not use the full 30 days, but instead filed the petition only 15 days after its initial
deadline, once FERC had issued its order disagreeing with the decision below.

Beijing

Boston

Chicago

Dallas

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

Paris

San Francisco

Shanghai

